JOURNAL VOUCHERS FOR FY 2000 DEPARTMENT OF THE NAVY
         GENERAL FUND FINANCIAL REPORTING


Report No. D-2001-122                          May 16, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
JV                    Journal Voucher
STARS-FDR             Standard Accounting and Reporting System – Financial
                         Departmental Reporting
Management Actions. DFAS issued journal voucher guidance at the end of FY 2000
as a result of the Inspector General, DoD, FY 1999 audit reports regarding journal
vouchers. DFAS Cleveland did not effectively implement the journal voucher guidance
for FY 2000. However, in February 2001, DFAS Cleveland conducted training on the
journal voucher guidance, emphasizing the requirement to maintain adequate support
for journal vouchers. DFAS Cleveland has followed up on that training with
supplemental guidance on journal voucher preparation and established a requirement for
continuing on-the-job training by supervisors. In addition, DFAS concurred with the
recommendations in the FY 1999 report regarding improper journal vouchers;
however, all corrective actions were not complete. We have received updated
information on the status of corrective actions and revised completion dates for those
corrective actions not yet complete. Based on the corrective actions already initiated
and planned, we do not make additional recommendations in this report.

Management Comments. We provided a draft of this report on March 26, 2001. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                          ii
Table of Contents

Executive Summary                             i


Introduction
     Background                              1
     Objectives                              2

Finding
     Navy General Fund Journal Vouchers       3

Appendixes
     A. Audit Process
         Scope and Methodology                8
         Management Control Program Review   10
         Prior Coverage                      12
     B. Report Distribution                  13
Background
    Chief Financial Officers Act. This audit was performed in response to Public
    Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
    as amended by Public Law 103-356, the “Federal Financial Management Act
    of 1994,” October 13, 1994. The Chief Financial Officers Act requires the
    annual preparation of financial statements and requires the Inspectors General to
    audit the financial statements in accordance with generally accepted Government
    auditing standards and other standards established by the Office of Management
    and Budget.

    Audit of the FY 2000 Department of the Navy General Fund Financial
    Statements. This report is the fourth and final in a series of reports on the
    FY 2000 Department of the Navy (Navy) General Fund Financial Statements.
    We performed audit work on the processes used to compile the Navy General
    Fund financial statements at Defense Finance and Accounting Service (DFAS)
    Cleveland and Kansas City. Two previous reports discussed departmental
    reporting and preparation of the Marine Corps financial reports. We delegated
    the audit of the FY 2000 Navy General Fund financial statements to the Naval
    Audit Service, and issued a report endorsing the Naval Audit Service disclaimer
    of opinion on the FY 2000 General Fund financial statements. See Prior
    Coverage in Appendix A for a list of the previous three reports.

    Role of the Defense Finance and Accounting Service. DFAS Cleveland and
    Kansas City provide finance and accounting support to the Navy and Marine
    Corps, respectively. They maintain departmental accounting records and
    prepare financial statements using data from field organizations. DFAS
    Cleveland prepared the Navy General Fund financial statements, which included
    data that DFAS Kansas City produced and submitted.

    Navy General Fund Financial Statements. The FY 2000 Navy General Fund
    financial statements consisted of the consolidating and consolidated Balance
    Sheet, Statement of Net Cost, and Statement of Changes in Net Position; and the
    combining and combined Statement of Budgetary Resources and Statement of
    Financing; along with the supporting footnotes, supplementary schedules, and a
    management overview. The Navy General Fund financial statements reported
    the following information.

           •   The Balance Sheet reported assets of $133.4 billion and liabilities of
               $24.7 billion.

           •   The Statement of Net Cost reported a net cost of operations of
               $94.5 billion.

           •   The Statement of Changes in Net Position reported an end-of-period
               net position of $108.7 billion.

           •   The Statement of Budgetary Resources reported total outlays of
               $87.9 billion.




                                        1
Objective
    This report focuses on the objective to determine the reliability and effectiveness
    of processes and procedures used to prepare the Navy General Fund financial
    statements. We also reviewed internal controls and compliance with laws and
    regulations related to the objective. Appendix A discusses the audit scope and
    methodology, the review of the DFAS Cleveland and Kansas City management
    control programs, and prior audits related to the audit objective.




                                         2
                   Navy General Fund Journal Vouchers
                   DFAS Cleveland recorded 13,813 departmental-level journal
                   vouchers (JVs), valued at $1 trillion, for FY 2000 financial data. Our
                   review of 4,473 JVs, valued at $614.8 billion, showed that 3,370 JVs,
                   valued at $161.6 billion, were either unsupported or improper.
                   Although DFAS issued JV guidance, unsupported JVs occurred because
                   the accountants were not adequately trained on the requirements of the
                   guidance to document support for the JVs. Improper JVs occurred
                   because they were recorded to invalid general ledger accounts. 1 As a
                   result, financial data reported in the FY 2000 Navy General Fund
                   financial statements were subject to increased risk and were unreliable.


Guidance for Preparing and Supporting JVs
           DoD Regulation 7000.14R, the “DoD Financial Management Regulation,”
           volume 6A, “Reporting Policies and Procedures,” February 12, 1996, requires
           DFAS to support adequately and to justify in writing any adjustment to the
           official accounting records. The regulation also provides that the documentation
           of JVs should be detailed enough to provide an audit trail.

           A DFAS Director for Accounting memorandum, “Journal Voucher Guidance,”
           August 2, 2000, provides additional guidance on the use of JVs within DoD,
           stressing that proper JV preparation is important to ensure that adjustments are
           accurately recorded as financial events. The guidance prescribes operational
           internal controls for JV processing. The guidance categorizes JVs by type and
           establishes specific documentation requirements to support each adjustment
           type. The guidance also establishes supervisory approval requirements based on
           the dollar value of the JV and documentation requirements.


JVs Recorded in FY 2000
           DFAS Cleveland and Kansas City recorded 13,813 JVs, valued at $1 trillion,
           throughout the fiscal year and at year-end to enter or adjust financial data
           supporting the Navy General Fund. The following table shows the results of
           our review of the JVs recorded in the Standard Accounting and Reporting
           System – Financial Departmental Reporting (STARS-FDR); Defense
           Departmental Reporting System (DDRS); and offline in order to adjust the
           STARS-FDR data to be compatible with DDRS.




1
    Inspector General, DoD, Report No. D-2000-137, “Accounting Entries and Data Processing for the
    FY 1999 Department of the Navy General Fund Financial Statements,” June 1, 2000, and Inspector
    General, DoD, Report No. D-2001-041, “Journal Entries to Support Departmental Reporting for the
    Marine Corps,” January 31, 2001, addressed similar improper JVs.



                                                  3
           Navy General Fund FY 2000 Departmental Journal Vouchers
                              (dollars in billions)
                                                               Not
Journal Voucher   Supported    Unsupported     Improper     Reviewed           Total
     Type            (JVs)        (JVs)          (JVs)        (JVs)            (JVs)

Accounting System Journal Vouchers

 STARS-FDR          $ 225.5        $ 81.7     $      79.9   $     354.0   $      741.1
                      (915)          (28)         (3,342)       (9,153)       (13,438)

Statement-Related Journal Vouchers

 DDRS                 212.9          -               -            43.4          256.3
                      (159)          -               -           (187)          (346)

 Offline               14.8          -               -            -              14.8
                       (29)          -               -            -              (29)

   Totals           $ 453.2        $ 81.7     $ 79.9        $ 397.4       $ 1,012.2
                    (1,103)           (28)     (3,342)       (9,340)       (13,813)


      Of the 13,438 total JVs in STARS-FDR, 4,285 JVs, valued at $387.1 billion,
      were reviewed and categorized as supported, unsupported, or improper. Of
      those reviewed, 66 JVs, valued at $295 billion, were judgmentally selected and
      reviewed for support. The JVs shown as improper in the table resulted from an
      analysis performed on the total population of JVs recorded in STARS-FDR to
      determine whether the JVs were recorded to invalid general ledger accounts.
      See Appendix A for more details on the scope and methodology of our review
      of JVs recorded in STARS-FDR.

      Of the 346 JVs, valued at $256.3 billion, recorded in the DDRS, 159 JVs,
      valued at $212.9 billion, were judgmentally selected and reviewed for support.
      All 29 JVs, valued at $14.8 billion, recorded offline, were reviewed for
      support. See Appendix A for more details on the scope and methodology of our
      review of JVs recorded in DDRS and offline.

      The 13,813 JVs, valued at $1 trillion, recorded for FY 2000, indicated a
      4 percent reduction, compared to 14,413 JVs in FY 1999, and a 70 percent
      reduction, compared to $3.4 trillion in FY 1999. The difference in dollar value
      primarily resulted from two JVs, valued at $800 billion each, recorded in
      FY 1999 that were not recorded in FY 2000. The JVs in FY 1999 were
      recorded to eliminate the effects of an interface file that was input with an



                                         4
            erroneous amount. Although there was a significant reduction in the dollar
            value of the JVs recorded in FY 2000 compared to FY 1999, the total number
            of JVs remained relatively constant.

JVs in STARS-FDR
            As indicated in the Table, there were 13,438 JVs, valued at $741.1 billion,
            recorded in STARS-FDR for FY 2000. Those JVs were recorded during the
            fiscal year, primarily to adjust financial data to prepare monthly departmental
            financial reports. We summarized the results of our analysis into the following
            categories.

            Unsupported JVs. Of the 66 judgmentally selected JVs, valued at $295 billion,
            28 JVs, valued at $81.7 billion, were unsupported. DFAS Cleveland was not
            able to provide adequate documentation or explanation to support those JVs. In
            some instances, no explanation or documentation was provided, and in other
            instances, the documentation provided did not support the JV.

            Supported JVs. Of the 66 judgmentally selected JVs, valued at $295 billion,
            35 JVs, valued at $212.6 billion, were supported. Overall, 915 JVs, valued at
            $225.5 billion, were supported. Of those, 880 JVs, valued at $12.9 billion,
            were direct reversals of JVs recorded to invalid general ledger accounts.
            Because those JVs eliminate the effect of using an invalid general ledger
            account, we categorized them as being “reversals,” which are included in the
            supported category.

            Improper JVs. DFAS Cleveland and Kansas City recorded 3,342 JVs, valued
            at $79.9 billion, to invalid general ledger accounts.2 This is net of 880 JVs,
            valued at $12.9 billion, that were subsequently reversed and included in the
            supported category. Three of those JVs, valued at $733 million, were part of
            our judgmental sample of 66 JVs, valued at $295 billion.

            Inspector General, DoD, Report No. D-2000-137, “Accounting Entries3 and
            Data Processing for the FY 1999 Department of the Navy General Fund
            Financial Statements,” June 1, 2000, reported the same condition, stating that
            DFAS Cleveland recorded 9,348 JVs, valued at $1.5 trillion, to invalid
            accounts. The difference in dollar value primarily resulted from one JV, valued
            at $800 billion, recorded in FY 1999 that was not recorded in FY 2000. The JV
            that was recorded in FY 1999 was recorded to the 1108 appropriation to
            eliminate the effects of an interface file that was input with an erroneous
            amount. The FY 2000 number and dollar value of improper JVs also decreased
            because of the 880 JVs, valued at $12.9 billion, that were subsequently reversed
            and included in the supported category. Although the number and dollar value
            of JVs recorded to invalid accounts have decreased from FY 1999 to FY 2000,
            DFAS Cleveland and Kansas City continued to use invalid accounts in order to
2
    Invalid general ledger accounts are non-standard accounts created to ensure JVs balance when entered
     into the general ledger. They neither post to summary accounts nor are used in preparing financial
     reports.
3
    In the prior reports, “accounting entries,” “journal entries,” and “entries” are the equivalent to “journal
     vouchers” in this report.

                                                        5
    avoid the appearance of JVs being one-sided entries in FY 2000. The audit
    report recommended that DFAS Cleveland determine why STARS-FDR
    received incomplete data, develop an action plan to obtain complete financial
    data, and establish controls within STARS-FDR to preclude JVs that do not
    meet generally accepted accounting principles. DFAS concurred with the
    recommendations; however, all corrective actions were not complete for
    FY 2000 financial reporting. We have received updated information on the
    status of corrective actions and revised completion dates for those corrective
    actions. Based on the corrective actions already initiated and planned, we are
    not making additional recommendations in this report. However, we will
    continue to monitor DFAS progress in eliminating the need for JVs to invalid
    general ledger accounts. See Inspector General, DoD, Report No. D-2000-137,
    for more details of the prior finding and recommendations.

    Inspector General, DoD, Report No. D-2001-041, “Journal Entries to Support
    Departmental Reporting for the Marine Corps,” January 31, 2001, also
    discusses entries recorded by DFAS Cleveland and Kansas City to invalid
    general ledger accounts. Those entries were recorded to manually create the
    “Report on Budget Execution” (SF 133) and were subsequently reversed when
    the same financial data were fed electronically into STARS-FDR to create other
    monthly departmental reports. See Inspector General, DoD, Report
    No. D-2001-041, for more details and for the recommendation made to DFAS
    that would eliminate the need to make such entries to invalid general ledger
    accounts.


JVs in DDRS and Offline
    As indicated in the Table, all the JVs recorded to DDRS and offline that we
    reviewed were adequately supported. DFAS Cleveland implemented DDRS in
    FY 2000 to prepare the annual audited financial statements of the Department of
    the Navy. DDRS was also used to compile the DoD Agency-Wide financial
    statements. The offline JVs were recorded after year-end, between
    STARS-FDR and DDRS, to prepare the financial data for input into DDRS for
    the FY 2000 financial statements.


Implementation of JV Guidance
    Unsupported JVs occurred in STARS-FDR because DFAS Cleveland did not
    effectively implement the JV guidance outlined in the August 2, 2000,
    memorandum from the Director, DFAS. The accountants that prepared the JVs
    were not trained on the requirements and benefits of following this guidance and
    of documenting support for their JVs. The quality and level of support was
    varied for the JVs we selected to review at DFAS Cleveland. In some
    instances, the support was readily available, provided in a timely manner, and
    well documented. In other instances, no documentation or explanation was
    provided. Such inconsistencies indicate that the accountants who prepared JVs



                                       6
     needed training to properly implement the guidance that has been issued. As a
     result, financial data reported in the FY 2000 Navy General Fund financial
     statements were subject to increased risk and were unreliable.


Corrective Actions Initiated
     DFAS issued JV guidance at the end of FY 2000 as a result of the Inspector
     General, DoD, FY 1999 audit reports regarding JVs. DFAS Cleveland did not
     effectively implement the JV guidance for FY 2000, as evidenced by our audit
     of FY 2000 JVs recorded by DFAS Cleveland. On February 26, 2001, DFAS
     Cleveland conducted training on the JV guidance, emphasizing the requirement
     to maintain adequate support for journal vouchers. DFAS Cleveland has
     followed up on that training with supplemental guidance on journal voucher
     preparation and established a requirement for on-the-job training by supervisors
     to continue, which should improve the documentation supporting JVs.
     Therefore, recommendations to improve the supporting documentation for JVs
     are not needed. However, we will continue to monitor DFAS progress in
     maintaining adequate documentation for all JVs.


Conclusion
     There was a significant reduction in the dollar value of the JVs recorded in
     FY 2000 compared to FY 1999, although the total number of JVs remained
     relatively constant. The significant reduction in dollar value of JVs recorded in
     FY 2000 compared to FY 1999 primarily resulted from two JVs, valued at
     $1.6 trillion, recorded in FY 1999 that were not recorded in FY 2000. DFAS
     Cleveland improved documenting the support for JVs recorded in STARS-FDR;
     however, there is still room for improvement. In addition to existing
     requirements to document support for JVs, the DFAS Director of Accounting
     issued specific guidance on the use and preparation of JVs at the end of
     FY 2000. DFAS Cleveland also responded to that need at the end of our audit
     and initiated training for all of the accounting personnel recording JVs. In
     addition, DFAS Cleveland issued supplemental guidance and established a
     requirement for continuing on-the-job training by supervisors. Therefore, we
     are not making a recommendation in this report.

     In addition to the unsupported JVs, our review of the FY 2000 JVs showed that
     JVs were still being recorded to invalid general ledger accounts at DFAS
     Cleveland and Kansas City. Inspector General, DoD, Report Nos. D-2000-137
     and D-2001-041 address the issue of the use of invalid general ledger accounts.
     See those reports for details and the recommendations. We have addressed
     management actions in this report.




                                         7
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We examined the processes that DFAS Cleveland used to
    consolidate financial data. DFAS Cleveland prepared the five required financial
    statements and the related footnotes. The FY 2000 Navy General Fund financial
    statements reported a budget authority of $89.3 billion.

    We performed a limited review of the compilation processes that DFAS
    Cleveland used. Our audit objective was to determine the reliability and
    effectiveness of processes and procedures used to prepare the Navy General
    Fund financial statements. In addition, we reviewed management controls and
    compliance with laws and regulations that DFAS Cleveland used to compile the
    General Fund’s financial data.

    In FY 2000, DFAS Cleveland used STARS-FDR to account for the Navy
    General Fund financial data at the departmental reporting level. DFAS
    Cleveland used STARS-FDR to prepare financial data for selected line items on
    the financial statements. STARS-FDR post-closing year-end trial balances were
    used to prepare the beginning trial balances for DDRS, with some offline JVs
    discussed below. Departmental reports such as the SF 133 were prepared using
    financial data from STARS-FDR. Our review of the processing of financial
    data in STARS-FDR included the adjustments recorded to accounting data;
    financial data used to prepare the financial statements; and the management
    controls over processes to prepare the financial statements.

    DFAS Cleveland and DFAS Kansas City used the DDRS reporting module to
    prepare the Navy General Fund financial statements. We observed the
    processing of DFAS Cleveland financial data in DDRS, which received adjusted
    post-trial balances from STARS-FDR. We reviewed the adjustments recorded
    to accounting data in the DDRS module; the financial data used to prepare the
    financial statements; and the management controls used to compile the Navy
    General Fund financial statements.

    STARS-FDR JV Data. We queried the DFAS Cleveland accounting system,
    STARS-FDR, for JVs recorded during FY 2000 by using the Query
    Management Facility tables. We queried STARS-FDR for all permanent JVs
    recorded from October 1, 1999, through September 30, 2000. Queries were
    run twice to collect JVs, in August and November 2000. Once completed, each
    appropriation was first saved by appropriation number and then retrieved using
    a file transfer protocol. Each individual file was opened using a spreadsheet and
    used for further analysis. We queried 35 appropriations, which resulted in
    13,438 JVs, valued at $741.1 billion. We judgmentally selected 66 JVs in
    STARS-FDR, valued at $295 billion. We also reviewed an additional 4,219 JVs
    in STARS -FDR from an analysis performed on the total population of
    STARS-FDR JVs to determine the number of JVs recorded to invalid general



                                        8
ledger accounts in FY 2000. Our review consisted of 4,285 JVs in
STARS-FDR, valued at $387.1 billion. All temporary JVs were excluded from
this audit because they were automatically reversed in the following month.

Offline JV Data. We reviewed 29 offline JVs, valued at $14.8 billion,
recorded by DFAS Cleveland for FY 2000 financial data. DFAS Cleveland
provided us with the support for those offline JVs. DFAS Cleveland recorded
offline JVs to adjust specific post trial balances of STARS-FDR in order to
prepare the beginning balances of DDRS.

DDRS JV Data. We queried DDRS for all JVs recorded by DFAS Cleveland
to prepare the FY 2000 Navy General Fund financial statements. There were
346 DDRS JVs, valued at $256.3 billion. JVs recorded to eliminate the effects
of intra-governmental transactions were included in the population but were not
reviewed.
DoD-Wide Corporate-Level Government Performance and Results Act
Goals. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate-level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following corporate-level goal, subordinate performance
goal, and performance measures.

       FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
       future by pursuing a focused modernization effort that maintains U.S.
       qualitative superiority in key warfighting capabilities. Transform the
       force by exploiting the Revolution in Military Affairs, and reengineer the
       Department to achieve a 21st century infrastructure. (01-DoD-02)

        FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
       and information management. (01-DoD-2.5)

       FY 2001 Performance Measure 2.5.1: Reduce the number of
       non-compliant accounting and finance systems. (01-DoD-2.5.1.).
        FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                   −DoD-2.5.2.).
       on financial statements. (01−

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objective and
goal.

       Financial Management. Objective: Consolidate finance and
       accounting operations. Goal: Reduce and improve accounting systems.
       (FM-2.2)

       Financial Management. Objective: Reengineer DoD business
       practices.   Goal: Improve data standardization of finance and
       accounting data items. (FM-4.4)



                                    9
           Financial Management. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    from STARS-FDR and DDRS to identify the JVs related to preparing the Navy
    General Fund financial statements. Although we did not perform a reliability
    assessment of the computer-processed data, we did not find errors that would
    preclude the use of the computer-processed data to meet the audit objectives or
    that would change the conclusions in the report.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from June 2000 through March 2001, in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD, based on the objectives of the audit in the scope and
    methodology. We included tests of management controls considered necessary.

    Contacts During the Audit. We visited or contacted organizations in the DoD.
    Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We evaluated
    management controls over the DFAS Cleveland and Kansas City processes and
    procedures for consolidating financial data from the field activities and other
    sources for preparation of the Navy General Fund departmental reports and
    financial statements. In this audit report, we reviewed controls over processing
    financial data in STARS-FDR and the preparation of financial reports. In
    Inspector General, DoD, Report No. D-2001-097 “Preparing Financial Reports
    for Marine Corps Appropriations,” April 12, 2001, we reviewed controls over
    processing financial data in the Standard Accounting, Budgeting, and Reporting
    System and the preparation of financial reports. We also reviewed
    management’s self-evaluation applicable to those controls. In addition, we
    reviewed management controls over processing financial data in DDRS and
    evaluated the preparation of financial reports in DDRS. Because DDRS was not
    an assessable unit, there was no self-evaluation performed.

    Adequacy of Management Controls. We identified material management
    control weaknesses at DFAS Cleveland and Kansas City, as defined by DoD

                                       10
Instruction 5010.40. STARS-FDR did not have the controls necessary to
adequately process financial reports. We are making no recommendations to
correct these weaknesses because Inspector General, DoD, Report
Nos. D-2000-137 and D-2001-041 contain recommendations to DFAS that
should correct the material weaknesses identified in this report. DFAS
Cleveland did not effectively implement the JV guidance for FY 2000, as
evidenced by our audit of FY 2000 JVs recorded by DFAS Cleveland, but had
initiated training at the end of our audit that should improve documentation. We
will continue to monitor DFAS progress in maintaining adequate documentation
for all JVs.

The manual processes performed at DFAS Kansas City did not have the
adequate controls necessary to prepare financial reports. Although we identified
the material weaknesses for DFAS Kansas City, we are making no
recommendations because Inspector General, DoD, Report No. D-2001-097
contains recommendations to DFAS that should correct the material weaknesses
identified. The senior officials responsible for management controls at DFAS
Cleveland and Kansas City will receive a copy of the report.

Adequacy of Management’s Self-Evaluation. Management at DFAS
Cleveland did identify STARS-FDR as an assessable unit but did not perform an
evaluation. Management did not complete the schedule in the management
control plan. Management has planned a review for the assessable unit,
STARS-FDR, to be completed by June 30, 2001.

Management at DFAS Kansas City identified financial reporting as an assessable
unit. However, in the self-evaluation, DFAS Kansas City officials did not
identify the specific material management control weaknesses identified by our
audits.

Uncorrected Material Weakness Identified in FY 1995. The FY 2000 Annual
Statement of Assurance, prepared at DFAS Arlington, presents the following
summary of Material Weakness No. 95-028, “Strengthen and Improve Support
of Accounting Operations at DFAS Cleveland Center.”
          DFAS Cleveland…documented known deficiencies in the accounting
          processes supporting the Department of the Navy (DON). Systems
          and processes are not being fully compliant with regulatory and
          statutory requirements, and cannot produce fully auditable financial
          statements. In turn, financial information and statements do not
          adequately assist with the management functions of budget
          formulation, budget execution, proprietary accounting and financial
          reporting with a high degree of reliability and confidence.

The uncorrected weaknesses have been assigned a targeted correction date of
FY 2001. Although standard operating procedures were in place for FY 2000
financial reporting, according to DFAS Cleveland, additional procedures must
be developed to cover monthly, quarterly, and annual reporting.




                                      11
Prior Coverage
    As part of our audit coverage of the FY 2000 Navy General Fund financial
    statements we issued the following three reports.

         •   Inspector General, DoD, Report No. D-2001-097 “Preparing Financial
             Reports for Marine Corps Appropriations,” April 12, 2001

         •   Inspector General, DoD, Report No. D-2001-056, “Oversight of the
             Naval Audit Service Audit of the FY 2000 Department of the Navy
             General Fund Financial Statements,” February 21, 2001

         •   Inspector General, DoD, Report No. D-2001-041, “Journal Entries to
             Support Departmental Reporting for the Marine Corps,” January 31,
             2001

    The General Accounting Office; the Inspector General, DoD; and the Naval
    Audit Service have conducted multiple reviews related to financial statement
    issues. General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports
    can be accessed on the Internet at http://www.hq.navy.mil/navalaudit.




                                      12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland
   Director, Defense Finance and Accounting Service Kansas City

Non-Defense Federal Organization
Office of Management and Budget




                                           13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         14
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

F. Jay Lane
Salvatore D. Guli
Marvin L. Peek
Linda A. Pierce
Edward A. Blair
David J. Ramseyer
Joseph A. Shook
Kristie J. Ebert
